   United States Department of Agriculture
   Office of Inspector General




U.S. Department of Agriculture, Fiscal Year
2011 Improper Payments Elimination and
Recovery Act of 2010 Compliance Review




                                             Audit Report 50024-0001-11
                                             March 2012
                          United States Department of Agriculture
                                  Office of Inspector General
                                   Washington, D.C. 20250




DATE:          March 14, 2012

AUDIT
NUMBER:        50024-0001-11

TO:            Jon M. Holladay
               Acting Chief Financial Officer
               Office of the Chief Financial Officer

ATTN:          Kathy Donaldson
               Audit Liaison Officer
               Planning and Accountability Division

FROM:          Gil H. Harden
               Assistant Inspector General
                 for Audit

SUBJECT:       Fiscal Year 2011 Improper Payments Elimination and Recovery Act of 2010
               Compliance Review


This report presents the results of the subject audit. Your written response to the draft report,
dated March 9, 2012, is included in its entirety at the end of the report. Excerpts from your
response and the Office of Inspector General’s position are incorporated in the relevant sections
of the report. Based on your response, we were able to accept management decision on all
recommendations in the report, and no further response to us is necessary.

In accordance with Departmental Regulation 1720-1, final action is required to be taken within 1
year of each management decision to prevent being listed in the Department’s annual
Performance and Accountability Report. Please follow your internal agency procedures in
forwarding final action correspondence to the Office of the Chief Financial Officer, Director,
Planning and Accountability Division.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents

Executive Summary .................................................................................................1
Background and Objective......................................................................................3
Section 1: USDA Did Not Meet IPERA Requirements .......................................5
   Finding 1: USDA Needs to Develop Plans to Meet IPERA Requirements ....5
         Recommendation 1 ........................................................................................9
         Recommendation 2 ......................................................................................10
   Finding 2: USDA Risk Assessments and Sampling Review Did Not
   Consider Entire Lifecycle of Payments ............................................................11
         Recommendation 3 ......................................................................................14
         Recommendation 4 ......................................................................................14
         Recommendation 5 ......................................................................................14
   Finding 3: Improper Payments Information in the PAR was Inaccurate ...16
         Recommendation 6 ......................................................................................18
         Recommendation 7 ......................................................................................18
         Recommendation 8 ......................................................................................19
Scope and Methodology.........................................................................................20
Abbreviations .........................................................................................................22
Exhibit A: Summary of Improper Payments Elimination and Recovery Act of
2010 (IPERA) Requirements ................................................................................23
Exhibit B: The Department of Agriculture’s (USDA)16 Programs Susceptible
to Significant Improper Payments .......................................................................24
Agency’s Response .................................................................................................25
Fiscal Year 2011 Improper Payments Elimination and Recovery Act
of 2010 Compliance Review – 50024-0001-11
Executive Summary
The Department of Agriculture (USDA) delivers approximately $189 billion in public services
annually through more than 300 programs. Currently, 16 of those programs are considered
vulnerable to significant improper payments, as they each had improper payments that were a
material proportion of program outlays. In recent years, USDA has reported to Congress that
several of these “high risk” programs have considerably reduced their improper payment rates; in
fiscal year 2009, USDA estimated that, overall, these programs made 5.92 percent of payments
in error, and reduced that rate to 5.37 percent by 2010. With Congress’ enactment of the
Improper Payments Elimination and Recovery Act of 2010 (IPERA), efforts to report, reduce,
monitor, and resolve underlying payment problems have intensified.1 IPERA requires the Office
of Inspector General to determine whether USDA was compliant with IPERA annually, starting
with fiscal year 2011. The Office of the Chief Financial Officer (OCFO) is responsible for
USDA’s improper payment reporting process.

When we evaluated improper payment information that USDA reports annually, we found
USDA did not fully comply with four of seven requirements. USDA did not always report
estimates for high-risk programs, report complete information about programmatic corrective
actions, meet annual reduction targets, and report error rates below specific thresholds. Although
individual programs’ non-compliance occurred for various reasons, USDA’s overall non-
compliance occurred because OCFO has not fully developed its reporting process to ensure that
it reports all required information about improper payments and that USDA meets its reduction
targets. To comply with annual IPERA requirements, USDA may need to allocate more program
resources to improper payment reduction efforts and intensify compliance efforts.

We also found that to be compliant with IPERA, USDA needs to address problems related to the
way that some component agencies evaluated programs’ susceptibility to improper payments,
and categorized payment errors. Program evaluators were not always adequately comprehensive
in their risk assessments and sampling, and did not always categorize errors properly. These
reporting problems occurred because internal controls over USDA’s improper payment reporting
have not been fully developed. As a result, USDA’s improper payment estimates may be
understated, and USDA may have provided inaccurate information to Congress about its
progress made to prevent and eventually eliminate improper payments.

Recommendation Summary
To ensure that USDA reports consistent, accurate information about improper payments, we
recommend that OCFO enhance internal controls, including guidance, oversight, and second
party reviews, over the improper payment reporting process.




1
    IPERA, Public Law 111-204 (July 22, 2010).

                                                             AUDIT REPORT 50024-0001-11         1
Agency Response
In its written response, dated March 9, 2012, OCFO concurred with the audit findings and
recommendations. Excerpts from the response and the Office of Inspector General’s (OIG)
position have been incorporated in the relevant sections. The written response is included in its
entirety at the end of the report.

OIG Position
Based on OCFO’s written response, OIG accepts management decision on all eight
recommendations.




2    AUDIT REPORT 50024-0001-11
Background and Objective

Background

The Department of Agriculture (USDA) delivers approximately $189 billion in public services
annually through more than 300 programs. Of the 33 component agencies and offices that
operate these programs, 7 component agencies currently administer “high-risk” programs that are
vulnerable to significant improper payments.2 USDA reported in fiscal year 2011 that these
agencies’ 16 total high-risk programs made $5.4 billion in improper payments, a 5.37 percent
error rate.

In general, an improper payment is any payment that should not have been made or that was
made in an incorrect amount. An improper payment also includes any payment made to an
ineligible recipient, a payment for an ineligible good or service, or a payment for goods or
services not received. In addition, a payment is improper if it lacks sufficient documentation.

The Improper Payments Elimination and Recovery Act of 2010 (IPERA) amended the Improper
Payments Information Act of 2002 (IPIA). IPERA requires agencies to conduct annual risk
assessments to identify programs susceptible to significant improper payments (“high-risk
programs”), and to measure and report improper payment estimates for those high-risk programs
each year.3 IPERA requires agencies to conduct expanded and more rigorous recovery audits to
identify and recapture overpayments; outlines actions that non-compliant agencies must
implement; and requires the Office of Inspector General (OIG) to annually determine whether
USDA properly reported improper payments.

Specifically, OIG determines if USDA met seven requirements. An IPERA compliant agency
has:

    ·   published a Performance and Accountability Report (PAR) for the most recent fiscal year
        and posted that report and any accompanying materials required by OMB on the agency
        website;

    ·   conducted a program-specific risk assessment for each program or activity;

    ·   published improper payment estimates for all programs that risk assessments identified as
        at high-risk for improper payments;

    ·   published programmatic corrective action plans in the PAR;


2
  The seven agencies include the Food and Nutrition Service (FNS), Farm Service Agency (FSA), Commodity
Credit Corporation, Natural Resources Conservation Service (NRCS), Rural Development, Forest Service (FS), and
Risk Management Agency (RMA).
3
  IPIA, Public Law 107-300 (November 26, 2002); and IPERA, Public Law 111-204 (July 22, 2010). IPERA
considers a program susceptible to significant improper payments if improper payments exceed $10 million and
account for 2.5 percent of program outlays. In addition, on a case-by-case basis, the Office of Management and
Budget (OMB) may require programs that do not meet these thresholds to annually report improper payment
estimates.

                                                                      AUDIT REPORT 50024-0001-11             3
       ·    published, and has met, annual reduction targets for each measured high-risk program;

       ·    reported a gross improper payment rate of less than 10 percent for each high-risk program
            in the PAR; and

       ·    reported information on its efforts to recapture improper payments.

Exhibit A provides a detailed description of these requirements.

To determine the Department’s compliance, we primarily used data from USDA’s
“Fiscal Year 2011 Performance and Accountability Report,” a document published
November 15, 2011, that the Office of the Chief Financial Officer (OCFO) publishes each year
to report USDA’s financial and performance data, including improper payment information.4 To
assist OCFO in meeting reporting requirements, USDA’s component agencies administering
high-risk programs must submit improper payment information in accordance with OCFO’s
guidance. Exhibit B provides a list of USDA’s 16 current high-risk programs.

Objective
Our objective was to determine whether USDA was compliant with IPIA, as amended by
IPERA, for fiscal year 2011.




4
    For the purposes of this report, we refer to this specific document as the 2011 PAR.

4          AUDIT REPORT 50024-0001-11
Section 1: USDA Did Not Meet IPERA Requirements

Finding 1: USDA Needs to Develop Plans to Meet IPERA Requirements
We found that USDA did not comply with four of seven IPERA requirements. Specifically, for
its 16 high-risk programs, USDA did not: (1) publish a gross estimate of improper payments for
1 program,5 (2) report completion dates or results of all corrective actions for 14 programs,6 (3)
meet annual reduction targets for 11 programs, and (4) publish improper payment rates of less
than 10 percent for 2 programs7. Although individual instances of non-compliance occurred for
various reasons, USDA’s overall non-compliance occurred because OCFO had not fully
developed its reporting process to ensure that it reported all required information about improper
payments and that USDA meets its reduction targets. As a result, OIG must report to Congress
that USDA did not comply with IPERA. Furthermore, USDA may need to allocate more
program resources to improper payment reduction efforts and intensify compliance efforts.

To comply with IPERA, agencies must have met seven specific requirements, including having
published improper payment estimates for all high risk programs; published programmatic
corrective action plans; published, and met, annual reduction targets; and published a gross
improper payment rate of less than 10 percent for each program.8 OMB requires agencies to
describe corrective action plans for reducing their improper payments.9

USDA has improved its reporting and reduced its improper payment rates for some high-risk
programs. For example, in the past 10 years, FNS’ Supplemental Nutrition Assistance Program
has decreased its error rate from 8.9 percent to 3.81 percent, which represents a significant
improvement given its $65 billion budget.10 For the past two years, FS’ Wildland Fire
Suppression Management program has reported a zero improper payment percentage.

Subsequent to IPERA’s enactment, OCFO had implemented several actions to develop USDA’s
process for reporting improper payments. For instance, OCFO officials revised guidance, met
with OMB to obtain clarification about how IPERA requirements apply to USDA, and solicited
bids to conduct a newly authorized type of recovery audit. OCFO also used various mechanisms
to provide oversight of USDA’s improper payment reporting. OCFO conducts monthly
meetings with component agency officials responsible for reporting improper payment
information on the high-risk programs. It also issues guidance to facilitate consistent reporting
among these programs, and reviews and provides feedback on documents submitted by these
officials.

5
  This program was FNS’ Child and Adult Care Food Program (CACFP). In addition, FSA’s Loan Deficiency
Program (LDP) did not report a gross estimate; however, OMB did not require an estimate of improper payments for
LDP in fiscal year 2011 because of LDP’s relatively low outlays of $200,000.
6
  Although completion dates can be planned or actual dates, USDA did not report completion dates for any of its
high-risk programs. However, 2 of the 16 high-risk programs, FS’ Wildland Fire Suppression Management and
FSA’s LDP, were not required to do so since they reported a 0 percent error rate and no error rate, respectively.
7
  These two programs included FNS’ National School Lunch Program (NSLP) and School Breakfast Program
(SBP).
8
  IPERA, Public Law 111-204 (July 22, 2010).
9
  OMB Circular A-123, Parts I and II, Appendix C (April 14, 2011).
10
   Fiscal Year 2011 Budget.

                                                                       AUDIT REPORT 50024-0001-11              5
Despite these efforts and mechanisms, we identified that USDA did not fully comply with
IPERA’s requirements. While OCFO must rely on agencies to provide improper payment
related information, OCFO is responsible to oversee and organize the reporting process. OCFO
needs to take additional actions to comply with the recently implemented IPERA requirements.
OCFO’s oversight activities and implementation actions were not adequate to ensure that USDA
complied with IPERA. Specifically, OCFO’s guidance was not adequate to ensure component
agencies provided corrective action dates. Also, component agencies’ corrective actions were
not always adequate to achieve reduction targets. The following subsections detail these issues.

         USDA Did Not Report Improper Payment Estimates for All High-Risk Programs

         For 1 of the 16 high-risk programs, USDA did not report a gross estimate in the PAR.11
         Specifically, FNS’ CACFP did not publish estimates of improper payments. This
         occurred because the agency did not have enough information about one program
         component to provide a gross estimate.

         IPERA requires agencies to measure and report gross improper payment estimates for
         each high-risk program.

         Although FNS reported a partial estimate of improper payments in CACFP, we noted that
         the program consists of two components: Family Day Care Homes Tiering Decisions and
         Family Day Care Homes Meal Claims.12 CACFP reported an estimate for the former
         component, but not the latter component, and thus did not report a gross estimate.

         During our review, FNS officials expressed difficulties in determining a gross estimate
         for CACFP, which includes 186,000 participating day care homes and centers and varied
         eligibility requirements for each component. FNS reported that it would cost
         approximately $20 million to conduct a national study to estimate improper payments for
         the entire program, including the Meal Claims component. FNS officials stated that
         given competing demands for limited discretionary appropriations, the budget climate has
         not been conducive to a request for funds to conduct such a study. Rather than again
         seeking such a significant investment, FNS deemed it more prudent to pursue multiple
         projects to determine the feasibility of developing an estimate of improper payments in
         CACFP. For instance, FNS is currently planning a project that would assess the
         feasibility of using information from parent recall interviews to validate claims that
         family day care providers submit in order to be reimbursed for meals.13

         Because FNS officials provided plans for alternate actions, we do not make any formal
         recommendations for this non-compliance in this report.



11
   USDA reported gross estimates for 14 of 16 high-risk programs. OMB did not require an estimate of improper
payments for, one program, FSA’s LDP, in fiscal year 2011 because of LDP’s relatively low outlays of $200,000.
12
   The Tiering Decisions component relates to validating reimbursable rate determinations for FNS CACFP
providers. The Meal Claims component relates to verifying the meal counts to the CACFP participants.
13
   Parent recall interviews are surveys to determine if children were really present at a family day care home when
claimed.

6     AUDIT REPORT 50024-0001-11
        Additionally, in relation to estimates of improper payments in USDA agencies, OIG has
        noted that not all agencies base their estimates on adequate information. A prior audit
        reported that RMA’s Federal Crop Insurance Corporation’s (FCIC) sampling
        methodology to estimate improper payments was inadequate because RMA evaluators
        excluded some types of payments, such as premium subsidies and denied claims.14 We
        recommended that RMA implement a sampling method for determining and calculating its
        rate of improper payments that fully meets the requirements of IPIA by including all
        payments, premium subsidies, and denied claims. Because RMA and OIG are coordinating
        to resolve this recommendation, we do not make recommendations related to RMA’s
        sampling methodology in this report.

        USDA Did Not Report Completion Dates or Results for Programmatic Corrective
        Actions

        For 14 of 16 high-risk programs, USDA did not report completion dates of all corrective
        actions or describe the results of actions taken. Component agencies administering these
        high-risk programs did not always provide OCFO with dates or results to include in the
        fiscal year 2011 PAR. Although OCFO guidance requested component agencies to list
        milestones to reduce improper payments, it did not explicitly request component agencies
        to submit completion dates and report results.

        OMB required corrective action plans to include the actions most likely to significantly
        reduce future improper payments; planned or actual completion dates of these actions;
        and the results of the actions that have been taken.15

        OCFO guidance requires agencies to provide OCFO details on corrective actions;
        however, OCFO did not establish a mechanism to ensure that it received and published
        all required details in the PAR, including completion dates for these actions. When we
        asked OCFO about developing plans to implement such a mechanism, OCFO officials
        stated OCFO will adjust the fiscal year 2012 corrective action plan guidance to include a
        table with appropriate columns requiring specific information on milestones relating to
        each corrective action. We agree with OCFO’s action, and further recommend that
        OCFO revise its guidance to explicitly request that component agencies submit dates and
        results related to corrective actions for each cause of improper payments.

        USDA Did Not Meet Its Annual Reduction Targets

        For 11 of 16 high-risk programs, USDA did not meet fiscal year 2011 reduction targets. 16
        Specifically, these 11 programs missed their reduction target by an average of 1.21
        percent. This occurred because prior to 2011, agencies were not required to meet


14
   Audit Report 05601-11-AT, Risk Management Agency Compliance Activities (September 16, 2009).
15
   OMB Circular A-123, Parts I and II, Appendix C (April 14, 2011).
16
   These 11 programs included FNS’ NSLP, FNS’ SBP, FNS’ CACFP, FNS’ Special Supplemental Nutrition
Program for Women, Infants and Children (WIC), FSA’s Milk Income Loss Contract program, FSA’s Conservation
Reserve Program, FSA’s Miscellaneous Disaster Program, FSA’s Noninsured Assistance Program, Rural
Development’s Rental Assistance Payment Program (RAP), RMA’s FCIC Fund, and NRCS’ Farm Security and
Rural Investment Act programs (FSRI).

                                                                   AUDIT REPORT 50024-0001-11            7
     reduction targets and did not always conduct assessments to determine whether past
     reduction targets were achieved and fiscal year 2011 reduction targets were realistic. As
     a result, the majority of high-risk programs may not have met reduction targets.

     Per OMB guidance, each year USDA reports annual reduction targets. Fiscal year 2011
     reduction targets were reported in USDA’s fiscal year 2010 PAR. IPERA requires
     agencies to publish, and meet, annual reduction targets.

     During our discussions regarding IPERA requirements, OCFO officials stated that they
     will recommend that the Secretary send a memo to each non-compliant component
     agency informing them that their program(s) have not met reduction targets, the current
     repercussions, and the potential repercussions if this trend continues. OCFO officials
     further stated that OCFO will request component agencies to provide OCFO with a plan
     describing robust and appropriately focused corrective actions to allow the agencies to
     meet their reduction targets. We agree with OCFO’s proposed actions.

     USDA Did Not Report Improper Payment Rates of Less Than 10 Percent For All
     Programs

     For 2 of 16 high-risk programs, USDA reported improper payment estimates of greater
     than 10 percent. Specifically, FNS’ NSLP and SBP reported estimated improper
     payment percentages of 15.98 and 24.96, respectively. NSLP and SBP significant
     improper payments resulted from the nature of the program, and FNS’ previously limited
     authority to conduct more thorough reviews and implement measures to tackle some of
     the causes of errors in the programs.

     Congress recently enacted the Healthy, Hunger-Free Kids Act of 2010, which includes
     provisions to improve the management and integrity of child nutrition programs. For
     instance, the Act (1) increased the frequency of administrative oversight reviews of
     NSLP from once every five years to once every three years; (2) further strengthened
     direct certification for school meals by rewarding States for improvement in direct
     certification rates; (3) provided alternatives to paper application systems in low-income
     areas, i.e. on-line application alternatives to the standard Program application process to
     reduce the number of paper applications that are processed manually; and (4) established
     additional review requirements for school districts that demonstrate high levels of
     administrative error.

     FNS officials stated they are aware of the significant improper payment rate in NSLP and
     SBP, and continue to work with State partners to develop initiatives and practices to
     address this problem. Further, FNS stated that the Healthy, Hunger-Free Kids Act of
     2010 included new tools and strategies that will help reduce errors in NSLP and SBP.
     Officials with FNS are aware that its baseline for estimates of improper payments may be
     unreliable. FNS developed the formulas that it has used to estimate improper payments
     rates from a previous study. Since the study examined program figures from school year
     2005 only and cannot provide confidence levels for other years, we cannot rely on
     estimates projected from this study. Recently, FNS has scheduled a study to update data
     used to determine FNS current improper payments. FNS officials believe this

8   AUDIT REPORT 50024-0001-11
        September 2012 study will reflect NSLP and SBP current improper payment rates and
        account for corrective actions implemented since the last study.

        OCFO officials stated that FNS should work with OMB and Congress on corrective
        actions, and to obtain additional funding, and/or legislative changes that will result in
        much lower improper payment error rates. If NSLP and SBP error rates remain non-
        compliant with IPERA for three consecutive years, they will be forced to propose
        statutory changes necessary to bring the programs into compliance. Because FNS
        officials stated the Healthy, Hunger-Free Kids Act of 2010 will improve program
        delivery and that the study will measure the current impact of improper payments in
        NSLP and SBP, we do not make any formal recommendations in this report for this non-
        compliance.

In this first year of IPERA reporting, OCFO has begun to develop its controls over the IPERA
reporting process. Although OCFO’s responsibilities were not always initially clear, OMB has
formalized its guidance and provided clarifications. OCFO may still need to take action to
develop its internal controls in light of these clarifications in order to meet IPERA requirements.
For instance, although OCFO guidance requests recovery targets from USDA’s component
agencies, USDA did not mention these targets in the 2011 PAR because OMB issued conflicting
guidance. OMB Circular A-136, Financial Reporting Requirements, templates did not explicitly
require recovery targets in the PAR;17 however, OMB Circular A-123, Requirements for
Effective Measurement and Remediation of Improper Payments, requires USDA to report this
information in the PAR.18 In subsequent years, OCFO will continue to oversee USDA’s
reporting of improper payment rates, and will need to ensure that its implementation of the
reporting process supports USDA’s efforts to eliminate and recover improper payments. OCFO
should evaluate the adequacy of its oversight activities and implement actions to improve all
policies, procedures, reviews, or guidance to assist in efforts to bring USDA into compliance
with IPERA.

The purpose of IPERA compliance is to capture sufficient details for agency officials to identify
systemic problems and take adequate corrective actions. As USDA continues to address
improper payments, we emphasize the importance and utility of complying with IPERA and
other improper payment requirements. If USDA takes steps to develop a more robust process for
reporting on its efforts, the public can be more confident that USDA conscientiously and
effectively accounts for, uses, and when necessary, recovers taxpayer dollars.

Recommendation 1
Update OCFO’s corrective action plan guidance to require component agencies to submit dates
and results related to corrective actions for each cause of improper payments.




17
   OCFO’s Guidance on Corrective Action Plans (March 23, 2011); OMB Circular A-136, Financial Reporting
Requirements (October 27, 2011).
18
   OMB Circular A-123, Appendix C, Requirements for Effective Measurement and Remediation of Improper
Payments (April 14, 2011).

                                                                    AUDIT REPORT 50024-0001-11            9
Agency Response
OCFO concurred with this recommendation. OCFO will revise the Departmental Corrective Action
Plan (CAP) guidance. The revised guidance will include a table with appropriate columns for
specific information on corrective actions for each cause of improper payments. The table will
include measurable milestones and completion dates. In addition, agencies will report quarterly on
their progress toward meeting milestones and completing scheduled actions. OCFO will complete
this action by June 30, 2012.

OIG Position
We accept OCFO’s management decision on this recommendation.

Recommendation 2
Direct component agencies to evaluate why reduction targets were not met and implement
corrective actions based on the results, and implement a process to assess future reduction targets
to determine if they are realistic and achievable.

Agency Response
OCFO concurred with this recommendation. OCFO will: (1) issue a memorandum to the component
agencies if their programs did not meet reduction targets in the fiscal year 2011 PAR; (2) revise
guidance to direct component agencies to determine why their reduction targets were unmet; and (3)
consult with OMB and component agencies to determine whether or not the future reduction targets
are realistic and achievable. OCFO will complete this action by August 31, 2012.

OIG Position
We accept OCFO’s management decision on this recommendation.




10     AUDIT REPORT 50024-0001-11
Finding 2: USDA Risk Assessments and Sampling Review Did Not Consider
Entire Lifecycle of Payments
We found that evaluators did not review the entire lifecycle of sampled payments for 2 of 16
high-risk programs during their fiscal year 2011 IPERA review, and that one additional USDA
program may be at risk for significant improper payments. This occurred because one
component agency did not develop adequate guidance for evaluators regarding eligibility for the
program. A second component agency decided to exclude a phase of the payment lifecycle from
review without receiving OMB approval, and this component agency did not address eligibility
as a key vulnerability when it assessed the risk of another program As a result, the two
programs’ reported improper payment estimates of $11 million and $15 million may be
understated. Furthermore, an additional program may need to be added to USDA’s list of high-
risk programs.

For all programs identified as high-risk for improper payments, component agencies must
annually select and review a statistical sample of program payments, and report their results as
improper payment estimates.19 According to OMB guidance, for each high-risk program,
agencies must review the entire lifecycle of payments from the eligibility determination phase
through the recipient’s receipt of payment unless OMB grants an agency permission to focus its
review on individual components. This alternative approach must be documented in the PAR.20
OCFO risk assessment guidance states that a USDA component agency should include program
eligibility requirements as a key vulnerability when a component agency assesses a program’s
susceptibility to improper payments.21

When we reviewed each agency’s sampling methods for high-risk programs and a non-statistical
sample of four assessments of other USDA programs’ susceptibility to improper payments, we
identified issues with three programs’ evaluations.22 We found that evaluators excluded some
phases from programs’ payment lifecycles from their reviews. Specifically:

     ·   evaluators of NRCS’ FSRI, a high-risk program, did not adequately validate eligibility;
     ·   evaluators of Rural Development’s RAP, a high-risk program, did not validate the
         payment amount; and
     ·   evaluators of Rural Development’s Single Family Housing (SFH) Guaranteed Loan
         Program did not adequately validate eligibility when they assessed whether it was a high-
         risk program.



19
   OMB allows agencies to use alternative non-statistical methods to determine program improper payment
estimates, but they must be approved by OMB prior to implementation.
20
   OMB Circular A-123, Appendix C, Requirements for Effective Measurement and Remediation of Improper
Payments (M-11-16, April 14, 2011).
21
   Fiscal Year 2011 USDA Risk Assessment Guidance, Version 7.1 (November 23, 2010).
22
   Specifically, we reviewed sampling methodologies reported in the 2011 PAR and additional documents describing
evaluators’ methods. In addition, we considered results from prior improper payment reviews conducted by OIG
between fiscal years 2009 and 2011. We also reviewed 4 of the 46 risk assessments of programs that USDA
conducted in fiscal year 2011.

                                                                    AUDIT REPORT 50024-0001-11              11
The intent of IPERA is to ensure that agencies report estimates as well as actively identify areas
for improvements in their program delivery to the public. To identify necessary improvements,
agencies should assess each phase of sampled payments. Further, to ensure that USDA has
accurately assessed programs’ vulnerabilities to improper payments, OCFO should review all
risk assessments. However, OCFO did not adequately evaluate risk assessments for USDA
programs. With enhanced internal controls to appropriately assess all phases of payment
lifecycles, as well as risk assessments, USDA could better ensure that the improper payment
estimates it reports are accurate.

For the first program, NRCS’ FRSI, we found that evaluators did not always validate eligibility
because, apart from the review form, NRCS had not developed formal guidance for the IPERA
review process. 23 It did not provide adequate instructions to its evaluators and created a single
review form for all FSRI component programs that did not reflect the unique document
requirements of each program. As a result, NRCS FRSI’s improper payment estimate may be
understated. NRCS officials acknowledged that eligibility was not “specifically tested” in all
payment samples. However, since OIG is assessing NRCS’ FSRI’s compliance with IPERA in a
separate review, we are not making a recommendation on this issue in this report.24

For the second program, Rural Development’s RAP, we identified that evaluators did not test
whether RAP properly paid the appropriate subsidy requested by the borrower. Rural
Development excluded the program’s payment processing stage from testing because, in 2004, it
implemented an automated data entry process which reduced data entry errors by Rural
Development field office staff. With 96 percent of all properties with rental assistance
submitting certifications electronically to Rural Development, the agency currently processes 93
percent of all subsidy requests automatically. Since there is no opportunity for additional error
due to the automated nature of the payment process, and therefore, no impact on the improper
payment rate, Rural Development evaluators decided not to test the actual payments to
borrowers.25 In addition, Rural Development reported that errors at this phase of the payment
process were historically minimal prior to it being automated.

Although Rural Development officials determined that there is a low risk that subsidy payments
are inaccurate at this phase, agencies must receive OMB approval prior to implementing this
approach. Rural Development officials stated that RAP did not receive approval from OMB to
test individual components of its sampled payments and exclude verifying the subsidy payment
was accurate.



23
   NRCS’ FSRI single estimate of improper payments includes 11 programs: the Farm and Ranch Lands Protection
Program, Wildlife Habitat Incentive Program, Wetlands Reserve Program, Environmental Quality Incentives
Program, Grassland Reserve Program, Conservation Security Program (which was succeeded by the Conservation
Stewardship Program under the Food, Conservation, and Energy Act of 2008), Agricultural Maintenance Assistance,
Healthy Forest Reserve Program, Chesapeake Bay Watershed Program (which was authorized by the Food,
Conservation, and Energy Act of 2008), and Agricultural Water Enhancement Program.
24
   Audit Report 10024-0001-11, Fiscal Year 2011 Natural Resources Conservation Service Improper Payment
Review, scheduled for release in spring 2012.
25
   Rural Development Multi-Family Housing Programs Improper Payment Information Act Compliance Report,
May 2011.

12      AUDIT REPORT 50024-0001-11
OCFO officials stated that they were not aware of OMB excluding certain phases of the lifecycle
of payments that are included in the two mentioned high-risk programs. OCFO officials further
stated that they will revise guidance to include a table framework containing primary
components of the lifecycle process to ensure that the agencies are addressing key elements. We
agree with OCFO’s approach.

The third program, Rural Development’s SFH Guaranteed Loan Program, was not reported on
USDA’s list of high-risk programs. However, although OCFO guidance requires it, when
assessing whether the program should be on this list, Rural Development did not address
eligibility as a key vulnerability in its risk assessment or state why eligibility was not a
vulnerable phase. When Rural Development’s evaluators conducted a risk assessment including
a review of selected payments in fiscal year 2011, the agency considered the program low-risk
for significant improper payments. Rural Development based this determination on the improper
payment estimate from the payment review and assessments of other drivers.26 However,
evaluators did not include program eligibility requirements as a driver.

Eligibility is an important component of payment lifecycle reviews. Rural Development may
have underestimated this program’s susceptibility to improper payments at the eligibility phase.
In an audit report issued on September 30, 2011, we reported that lenders had not fully complied
with Federal regulations or Recovery Act directives in determining borrower eligibility for 33 of
100 loans we reviewed.27 Consequently, there is increased risk that Rural Development had
improperly paid or will improperly pay loss claims on these ineligible loans.

For fiscal year 2011, OCFO did not assess whether Rural Development’s SFH Guaranteed Loan
program’s risk assessment complied with OCFO’s guidance and adequately reviewed payments
selected for review. OCFO officials stated that they conducted a limited review of the draft risk
assessments based on competing legislative and executive mandates. Officials generally agreed
with our recommendation to implement a process to thoroughly review a sample of risk
assessments for compliance with the guidance.

By excluding verification of eligibility, Rural Development and NRCS did not fully address one
of the highest risk areas for improper payments, as noted by the Department in its risk
assessment guidance. We also note that Rural Development’s SFH Guaranteed Loan program
and NRCS FSRI have a history of making payments or loan guarantees to ineligible
participants.28


26
   Evaluators looked at five drivers to assess the propriety of SFH Guaranteed Loan program payments, including
verification of edit codes, additional interest past the settlement date, due date of last paid installment, method of
liquidation, and payee.
27
   Audit Report 04703-0002-CH, Controls Over Eligibility Determinations for SFH Guaranteed Loan Recovery Act
Funds (Phase 2) (September 30, 2011).
28
   In response to a previous audit, NRCS officials acknowledged that one of its programs under FSRI paid at least
$2.2 million to ineligible participants. Audit Report 10601-0004-KC, Natural Resources Conservation Service
Conservation Security Program (June 25, 2009). Another audit estimated that 30,310 loans were ineligible for loan
guarantees by Rural Development, with a projected total value of $4.16 billion. We are 95 percent confident that
between 21,129 (almost 26 percent) and 39,492 (over 48 percent) loans were ineligible for one or more reasons and
the total value of those loans is between $2.7 and $5.6 billion. Audit Report 04703-0002-Ch, Controls Over
Eligibility Determinations for SFH Guaranteed Loan Recovery Act Funds (Phase 2) (September 30, 2011).

                                                                         AUDIT REPORT 50024-0001-11                13
Like other phases of a payment’s lifecycle, the eligibility phase is a key element of any improper
payment review. Taking steps to ensure that agencies assess the entire lifecycle of program
payments improves the accuracy of information about errors that may arise during the process.
By taking such steps, USDA can strengthen its ability to eliminate and recover improper
payments.

Recommendation 3
Direct Rural Development to include payment verification in its RAP sampling review process;
or obtain approval from OMB for the exclusion of payment verification from its sampling review
process, and document the exclusion in the fiscal year 2012 PAR.

Agency Response
OCFO concurred with this recommendation. OCFO will: (1) direct Rural Development to include
payment verification in its RAP sampling review process, or obtain OMB approval to exclude
payment verification from it sampling review process; and (2) revise the USDA Improper Payments
Information Act High Risk Program Measurement Plan Guidance to include a table containing
primary components of the lifecycle process of payments. This step will ensure that agencies address
all key elements, including payment verification. OCFO will complete this action by May 31, 2012.

OIG Position
We accept OCFO’s management decision on this recommendation.

Recommendation 4
Enhance OCFO’s oversight process to include a thorough review of sampled risk assessments to
determine compliance with OCFO guidance.

Agency Response
OCFO concurred with this recommendation. OCFO will develop a more comprehensive review
process of USDA’s risk assessments to determine compliance with OCFO guidance. This
process will include a review of the sampled risk assessments by the Credit, Travel, and Grants
Policy Division with the assistance of the Internal Controls Division. OCFO will complete this
action by June 30, 2012.

OIG Position
We accept OCFO’s management decision on this recommendation.

Recommendation 5
Direct Rural Development to re-assess its SFH Guaranteed Loan program to determine the level
of risk susceptible to significant improper payments. Verification of eligibility should be one of
the evaluators’ drivers.


14     AUDIT REPORT 50024-0001-11
Agency Response
OCFO concurred with this recommendation. OCFO will direct Rural Development to perform a
risk assessment with a test of transactions on the SFH Guaranteed Loan Program for fiscal year
2012. This test will include verification of eligibility as one of the evaluators’ drivers. OCFO
will complete this action by June 30, 2012.

OIG Position
We accept OCFO’s management decision on this recommendation.




                                                            AUDIT REPORT 50024-0001-11        15
Finding 3: Improper Payments Information in the PAR was Inaccurate

We found that USDA reported inconsistent and improperly supported information concerning 12
of the 16 high-risk programs in its fiscal year 2011 PAR, and did not properly categorize the root
causes of improper payments. 29 This occurred because USDA lacked an effective quality
assurance process to ensure improper payment information was consolidated accurately in the
PAR, and because component agencies with high-risk programs inconsistently applied the
guidance used to categorize the improper payments. As a result, when USDA reported to
Congress, it provided information about its progress made to prevent and eventually eliminate
improper payments that was not always accurate.

OMB requires agencies to summarize their progress in preventing and reducing improper
payments in the Management’s Discussion and Analysis (MD&A) section of the PAR, and
include the detailed portion of the reporting as an appendix.30 USDA requires its component
agencies to submit improper payment information to OCFO for inclusion in the PAR.31 Federal
managers are responsible for applying the internal control standards consistently to meet
objectives and assess effectiveness.32

During our review of improper payment information, we found several discrepancies between
supporting documents and the MD&A and appendix sections of the PAR.

For example:

     ·   The PAR stated that “NRCS’ FSRI incorporated IPIA goals and objectives in performance
         standards;” while, NCRS’ FSRI’s corrective action plan stated that “a plan does not
         currently exist for holding managers accountable, but is under development.”

     ·   According to the PAR, the causes of improper payments in FSA’s MILC included incorrect
         payee share calculation, insufficient documentation, and ineligibility. However, the
         documents we reviewed did not support these statements. When we spoke with FSA
         officials, they clarified that causes included insufficient and incomplete documentation
         only.

OCFO officials acknowledged the discrepancies. OCFO officials stated that competing
executive and legislative mandates limited the amount of review of the PAR improper payment
section. Officials further stated that, for subsequent reporting periods, OCFO will strengthen its
quality control process over the PAR by completing a second-party quality control review


29
   These 12 programs included FNS’ Supplemental Nutrition Assistance Program, WIC, and CACFP; NRCS’ FSRI;
RMA’s FCIC; and FSA’s Milk Income Loss Contract (MILC), Marketing Assistance Loan Program, Loan
Deficiency Payments, Direct and Counter-Cyclical Payments, Conservation Reserve Program, Miscellaneous
Disaster Programs, and Noninsured Assistance Program.
30
   OMB Circular A-123, Appendix C, Requirements for Effective Measurement and Remediation of Improper
Payments (M-11-16, April 14, 2011).
31
   OCFO USDA Fiscal Year 2011 Corrective Action Plan Guidance (March 23, 2011).
32
   OMB Circular A-123, Management’s Responsibility for Internal Control (December 21, 2004).


16        AUDIT REPORT 50024-0001-11
process earlier, and involve component agencies in the review process. We agree with OCFO
proposed actions to improve its quality assurance process.

In addition to these discrepancies, we identified that the way the Department categorized the
causes of errors did not agree with improper payment information reported in the appendix of the
PAR. OMB requires agencies to report information about the root causes of improper payments
by assigning errors to one of the following three categories:

     ·   Administrative and Documentation errors: i.e., errors due to the absence of supporting
         documentation, or incorrect inputting, classifying, or processing of applications.

     ·   Authentication and Medical Necessity errors: i.e., errors in eligibility criteria that cannot
         be authenticated through third-party databases or other resources because no databases or
         other resources exist. 33

     ·   Verification errors: i.e., errors that arise from failure or inability to verify recipient
         information, including earnings, income, assets, or work status, even though verifying
         information does exist in third-party databases or other resources, or errors due to
         beneficiaries failing to report correct information to an agency.34

In the appendix of the PAR, each high-risk program attributes its improper payments to one or
more of these categories. The MD&A illustrates USDA’s overall percentage for each of these
three categories. In reporting the overall percentages of causes of improper payments in USDA
programs to Congress, USDA assigned 2 percent of errors to the first category, 1 percent of
errors to the second, and 97 percent to the third. However, we questioned whether these
percentages provided Congress an accurate description of USDA’s causes of improper payments.

To determine the Departmentwide percentages for each category, OCFO asked component
agencies to indicate what percentage of its improper payments related to each category. We
found component agencies did not consistently assign the appropriate category.

For example, USDA reported in the appendix of the PAR that FNS’ SBP attributed most of its
improper payments to authentication and administrative errors; the first two categories. Based
on our document review, we determined that USDA’s percentages in the MD&A for the first two
categories should have been higher because FNS’ SBP accounts for 13 percent of USDA’s total
rate of improper payments. This occurred because FNS officials assigned all errors to the third
category; and OCFO did not perform a comparison of the cause categories in the MD&A with
the appendix of the PAR to ensure the percentages were reasonable and consistent.

In addition, we found officials of two high-risk programs assigned similar root causes to two
different categories. Specifically, RMA categorized recipient fraud as an authentication error,
while FNS categorized recipient fraud as a verification error. Although fraud may relate to more
than one category of OMB root causes, the same type of fraud should be reported in the same
category. We determined that OMB guidance for categorizing improper payments’ root causes

33
  Medical Necessity errors do not apply to USDA programs.
34
  OMB Circular A-123, Appendix C, Requirements for Effective Measurement and Remediation of Improper
Payments (M-10-13, March 22, 2010).

                                                                 AUDIT REPORT 50024-0001-11            17
can be misinterpreted, which may lead to component agencies inconsistently categorizing similar
errors. By further developing OCFO guidance to provide examples customized to USDA
programs, OCFO could better assist agencies in improving the accuracy of USDA’s reporting.

OCFO officials acknowledged that agencies are struggling to properly categorize the root causes
of improper payments into the proper OMB cause categories. Officials stated that they will
request that OMB work with all Federal agencies to better define the three categories and
provide clarifying examples. In addition, officials stated that they will coordinate with
component agency officials to develop a plan to better understand and address how to
standardize the categories of root causes. Finally, OCFO officials stated that they will revise the
corrective action plan template to include specific improper payment examples applicable to
each OMB category.

Accurate reporting is indispensable to convey actual progress made by USDA to prevent and
eventually eliminate improper payments. Without appropriate reporting, there is a risk that
decision makers and the public will misinterpret the impact of USDA efforts to eliminate and
recover improper payments. Therefore, USDA should improve its final review process and
assure consistent reporting.

Recommendation 6
Implement a second-party quality review process to ensure that information reported in the PAR
is properly supported.

Agency Response
OCFO concurred with this recommendation. OCFO will strengthen its quality control process over
the improper payments section of the PAR, including a comparison of the MD&A and Appendix,
by completing a second-party quality control review early in the drafting process. The quality
control process will also include a review of the improper payments section by the contributing
component agencies. OCFO will complete this action by September 30, 2012.
OIG Position
We accept OCFO’s management decision on this recommendation.

Recommendation 7
Implement controls to ensure that the agencies consistently and accurately categorize improper
payments.

Agency Response
OCFO concurred with this recommendation. OCFO will: (1) request guidance from OMB to better
define the three categories of errors and provide examples; (2) coordinate with component agencies
to develop a plan to standardize the classification of USDA payment errors within OMB’s three
categories of root causes; (3) revise the Departmental CAP guidance to include examples of USDA
payment errors applicable to each OMB category; and (4) conduct a quality control review of

18     AUDIT REPORT 50024-0001-11
component agencies’ submissions for the fiscal year 2012 PAR to ensure payment errors are
consistently and accurately categorized. OCFO will complete this action by August 31, 2012.
OIG Position
We accept OCFO’s management decision on this recommendation.

Recommendation 8
Update OCFO guidance for determining the cause category of an error to include specific
examples related to USDA programs.

Agency Response
OCFO concurred with this recommendation. OCFO will: (1) revise the Departmental CAP guidance
to include examples of errors applicable to each OMB category; and (2) conduct a quality control
review of component agencies submission for the fiscal year 2012 PAR. OCFO will complete this
action by August 31, 2012.
OIG Position
We accept OCFO’s management decision on this recommendation.




                                                            AUDIT REPORT 50024-0001-11        19
Scope and Methodology
Our audit focused on improper payment information reported in USDA’s fiscal year 2011 PAR
and additional supporting documentation. We performed our review at OCFO Headquarters in
Washington, D.C. We commenced fieldwork in December 2011, and completed our fieldwork
in February 2012.

We interviewed OCFO officials and USDA component agencies’ management, supervisory, and
staff personnel involved with the 16 high-risk programs susceptible to significant improper
payments. We obtained and reviewed all applicable laws, rules, and regulations pertaining to
improper payments, as well as OCFO’s guidance, policies, and procedures. We also reviewed
each program’s plans describing how sampling was performed, estimates calculated, and
completed or proposed corrective actions to reduce improper payments in the future.

To accomplish our objective, we performed the following audit steps to assess USDA’s
compliance with the seven IPERA requirements as follows:

       Published a PAR for the most recent fiscal year and posted that report on the
       agency website

       We obtained and reviewed the fiscal year 2011 PAR. We also browsed the USDA’s
       website to verify that the PAR was posted on the internet.

       Conducted a program-specific risk assessment for each program or activity

       We non-statistically selected four programs based on program outlays, results from prior
       audits, and the type of risk assessment required. Annually, OCFO selects which risk
       assessment to perform for a particular program based on its stage in the 3-year cycle.
       The risk assessments range from completing a one page form certifying that events
       affecting a program have not changed, to completing a full risk assessment including a
       test of transactions. Our four selected programs captured various types of risk
       assessments. We reviewed these assessments to determine whether level of risk
       determinations were reasonable.

       Published improper payment estimates for all programs identified as high-risk for
       improper payments under its risk assessment

       We reviewed the improper payment sampling results table in Appendix B, Improper
       Payments and Recovery Auditing Details, of the PAR to identify which programs
       recorded “NA” (not available).

       Published programmatic corrective action plans in the PAR

       We reviewed the corrective actions and additional information reported in the PAR to
       determine whether USDA complied with OMB guidance. We also reviewed each high-
       risk program’s detailed corrective action plans submitted to OCFO to verify that the
       information in the PAR was accurate and supported.

20     AUDIT REPORT 50024-0001-11
       Published, and has met, annual reduction targets for each program assessed to be at
       risk and measured for improper payments

       We reviewed the improper payment reduction outlook table in Appendix B of the fiscal
       year 2010 PAR and compared each program’s reduction target to the actual results listed
       in the improper payment sampling results table in Appendix B of the fiscal year 2011
       PAR.

       Reported a gross improper payment rate of less than 10 percent for each high-risk
       program and published in the PAR

       We reviewed the improper payment sampling results table in Appendix B of the fiscal
       year 2011 PAR to identify which programs did not report estimates less than 10 percent.

       Reported information on its efforts to recapture improper payments

       We reviewed the recovery auditing and recovery of payments sections in Appendix B of
       the fiscal year 2011 PAR to verify that USDA discussed its recovery efforts.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                           AUDIT REPORT 50024-0001-11        21
Abbreviations
CACFP........................ Child and Adult Care Food Program
CAP............................. Corrective Action Plan
CCC............................. Commodity Credit Corporation
CRP ............................. Conservation Reserve Program
DCP............................. Direct and Counter-Cyclical Payments
FCIC............................ Federal Crop Insurance Corporation
FNS ............................. Food and Nutrition Service
FS ................................ Forest Service
FSA ............................. Farm Service Agency
FSRI ............................ Farm Security and Rural Investment Act Programs
IPERA ......................... Improper Payments Elimination and Recovery Act of 2010
IPIA............................. Improper Payments Information Act of 2002
LDP ............................. Loan Deficiency Payments
MAL............................ Marketing Assistance Loan Program
MD&A ........................ Management’s Discussion and Analysis
MDP............................ Miscellaneous Disaster Programs
MILC........................... Milk Income Loss Contract Program
NAP............................. Noninsured Assistance Program
NRCS .......................... Natural Resources Conservation Service
NSLP........................... National School Lunch Program
OCFO.......................... Office of the Chief Financial Officer
OIG ............................. Office of Inspector General
OMB ........................... Office of Management and Budget
PAR............................. Performance and Accountability Report
RAP............................. Rental Assistance Program
RMA ........................... Risk Management Agency
SBP ............................. School Breakfast Program
SFH ............................. Single Family Housing
SNAP            ................... Supplemental Nutrition Assistance Program
USDA.......................... Department of Agriculture
WFSM......................... Wildland Fire Suppression Management
WIC............................. Special Supplemental Nutrition Program for Women, Infants and
                                    Children Program




22     AUDIT REPORT 50024-0001-11
Exhibit A: Summary of Improper Payments Elimination and
Recovery Act of 2010 (IPERA) Requirements
Exhibit A provides a detailed description of the seven requirements agencies must meet to
comply with IPERA.
                                          OIG Fiscal
                                           Year 2011
       Description of IPERA               Compliance           Reason for OIG Compliance
           Requirements                 Determination.                   Decision
                                          Did USDA
                                           Comply?
 Published a Performance and                           The Department of Agriculture
 Accountability Report (PAR) for                       (USDA) published and posted a PAR
 the most recent fiscal year and                       with accompanying materials on the
 posted that report and any                YES         agency’s website.
 accompanying the Office of
 Management and Budget (OMB)
 required materials on the agency
 website.
                                                       Although IPERA required all
                                                       programs to be risk assessed after one
                                                       year of enactment, OMB approved
 Conducted a program specific risk                     USDA’s 3-year risk assessment cycle.
 assessment for each program or            YES
                                                       The Office of the Chief Financial
 activity.                                             Officer provided the Office of
                                                       Inspector General its risk assessment
                                                       guidance inventory of programs.
 Published improper payment
 estimates for all high-risk programs      NO
 and activities.
 Published programmatic corrective         NO
 action plans in the PAR.
 Published, and has met, annual
 reduction targets for each program        NO          Discussed in Finding 1
 assessed to be at risk and measured
 for improper payments.
 Reported a gross improper payment
 rate of less than 10 percent for each
 program and activity for which an         NO
 improper payment estimate was
 obtained and published in the PAR.
 Reported information on its efforts                   USDA reported its efforts to recapture
 to recapture improper payments.           YES         improper payments in Appendix B of
                                                       the PAR.

                                                         AUDIT REPORT 50024-0001-11         23
Exhibit B: The Department of Agriculture’s (USDA)16 Programs
Susceptible to Significant Improper Payments
Exhibit B provides a list of USDA’s 16 current high-risk programs.
 High-Risk Programs                                              USDA Component Agency
 1. Supplemental Nutrition Assistance Program (SNAP)

 2. National School Lunch Program (NSLP)
                                                                     Food Nutrition and Service
 3. School Breakfast Program (SBP)
                                                                              (FNS)
 4. Child and Adult Care Food Program (CACFP)
 5. Special Supplemental Nutrition Program for Women,
    Infants, and Children (WIC)
 6. Federal Crop Insurance Corporation (FCIC) Program Fund           Risk Management Agency
                                                                             (RMA)
 7. Marketing Assistance Loan Program (MAL)                          Farm Service Agency (FSA)
                                                                       and Commodity Credit
                                                                         Corporation (CCC)
 8. Milk Income Loss Contract Program (MILC)
 9. Loan Deficiency Payments (LDP)
 10. Direct and Counter-Cyclical Payments (DCP)
                                                                                FSA
 11. Conservation Reserve Program (CRP)
 12. Miscellaneous Disaster Programs (MDP)
 13. Noninsured Assistance Program (NAP)
 14. Rental Assistance Program (RAP)                                    Rural Development
 15. Farm Security and Rural Investment Act programs (FSRI)              Natural Resources
                                                                        Conservation Service
                                                                             (NRCS)
 16. Wildland Fire Suppression Management (WFSM)                         Forest Service (FS)




24     AUDIT REPORT 50024-0001-11
Agency’s Response




     OFFICE OF THE CHIEF FINANCIAL
                OFFICER
       RESPONSE TO AUDIT REPORT




                       AUDIT REPORT 50024-0001-11   25
United States
Department of
Agriculture
                      TO:           Phyllis K. Fong                                           March 9, 2012
Office of the Chief                 Inspector General
Financial Officer                   Office of Inspector General
1400 Independence
Avenue, SW            FROM:         Jon M. Holladay                                    -s- John G. Brewer for
                                    Deputy Chief Financial Officer
Washington, DC
20250
                                    Office of the Chief Financial Officer

                      SUBJECT:      Fiscal Year 2011 Improper Payments Elimination
                                    and Recovery Act of 2010 Compliance Review
                                    Audit No. 50024-0001-11, Discussion Draft Report

                      This memorandum responds to your request for management’s response to the audit
                      recommendations in Audit No. 50024-0001-FM, Official Draft Report, dated February 27, 2012.
                      The management response is attached.

                      If you have any questions or need additional information, please contact me at
                      (202) 720-5539, or have a member of your staff contact Kathy Donaldson at (202) 720-1893.

                      Attachment
Attachment




                 Fiscal Year 2011 Improper Payments Elimination
                  And Recovery Act of 2010 Compliance Review
                              Audit No: 50024-1-11
Recommendation No. 1: Update Office of the Chief Financial Officer’s (OCFO) corrective
action plan guidance to require component agencies submit dates and results related to corrective
actions for each cause of improper payments.

Management Response: We concur with the Office of Inspector General’s (OIG)
recommendation that the USDA’s Corrective Action Plan (CAP) guidance require component
agencies to submit dates and results related to corrective actions for each cause of improper
payments. The fiscal year (FY) 2011 CAP guidance required agencies to provide milestones for
each corrective action. It also required agencies to tie corrective actions to the corresponding
root causes of improper payments, and provide milestones to reduce the weaknesses. We will
revise the guidance so that agencies provide sufficient information to comply with the Improper
Payments and Elimination and Recovery Act of 2010.

The following action will address this recommendation:

OCFO will revise the Departmental CAP guidance. The revised guidance will include a table
with appropriate columns for specific information on corrective actions for each cause of
improper payments. The table will include measurable milestones and completion dates. In
addition, agencies will report quarterly on their progress toward meeting milestones and
completing scheduled actions.

Date Corrective Action Will be Completed: June 30, 2012

Responsible Organization: Credit, Travel, and Grants Policy Division, Office of the Chief
Financial Officer

Recommendation No. 2: Direct component agencies to evaluate why their reduction targets
were not met and implement action based on their results, and implement a process to assess
future reduction targets to determine if they are realistic and achievable.

Management Response: We concur with OIG’s recommendation to direct component agencies
to evaluate why their reduction targets were unmet, and determine if these targets should be
revised for the FY 2012 Performance and Accountability Report (PAR).

The following actions will address this recommendation:

1) The revised guidance will direct component agencies to determine why their reduction
   targets were unmet. Agencies will be required to justify the basis for any needed revisions to
   their reduction targets for FY 2012;
2) OCFO will issue a memorandum to the component agencies if their programs did not meet
   reduction targets in the FY 2011 PAR. This memorandum will explain the current
   repercussions for failing to meet reduction targets and the potential implications if this trend
   continues for future reduction targets; and
3) We will consult with the Office of Management and Budget (OMB) and component agencies
   to determine whether or not the future reduction targets are realistic and achievable.

Date Corrective Action Will be Completed: August 31, 2012

Responsible Organization: Credit, Travel, and Grants Policy Division, Office of the Chief
Financial Officer

Recommendation No. 3: Direct Rural Development (RD) to include payment verification in its
Rental Assistance Program (RAP) sampling review process; or obtain approval from OMB for
the exclusion of payment verification from its sampling review process and document the
exclusion in the FY 2012 PAR.

Management Response: We concur with OIG’s recommendation that RD include payment
verification in its RAP sampling review process or obtain OMB approval to exclude payment
verification from its sampling review process. Any exclusion will be documented in the FY 2012
PAR.

The following actions will address this recommendation:

1) We will direct RD to include payment verification in its RAP sampling review process, or
   obtain OMB approval to exclude payment verification from it sampling review process; and
2) We will revise the USDA Improper Payments Information Act High Risk Program
   Measurement Plan Guidance. The revised guidance will include a table containing primary
   components of the lifecycle process of payments. This step will ensure that agencies address
   all key elements, including payment verification.

Date Corrective Action Will be Completed: May 31, 2012

Responsible Organization: Credit, Travel, and Grants Policy Division, Office of the Chief
Financial Officer

Recommendation No. 4: Enhance the OCFO’s oversight process to include a thorough review
of sampled risk assessments to determine compliance with OCFO guidance.

Management Response: We concur with OIG’s recommendation that OCFO enhance its
oversight process to include a thorough review of sampled risk assessments.

The following action will address this recommendation:


                                                 2
OCFO will develop a more comprehensive review process of USDA’s risk assessments to
determine compliance with OCFO guidance. This process will include a review of the sampled
risk assessments by the Credit, Travel, and Grants Policy Division with the assistance of the
Internal Controls Division.

Date Corrective Action Will be Completed: June 30, 2012

Responsible Organization: Credit, Travel, and Grants Policy Division and Internal Controls
Division, Office of the Chief Financial Officer

Recommendation No. 5: Direct RD to re-assess its Single Family Housing (SFH) Guaranteed
Loan program to determine the level of risk susceptible to significant improper payments.
Verification of eligibility should be one of the evaluators’ drivers.

Management Response: USDA concurs with OIG’s recommendation that the SFH Guaranteed
Loan Program staff re-assess the criteria used to determine the risk level for significant improper
payments.

The following action will address this recommendation:

We will direct RD to perform a risk assessment with a test of transactions on the SFH
Guaranteed Loan Program for FY 2012. This test will include verification of eligibility as one of
the evaluators’ drivers.

Date Corrective Action Will be Completed: June 30, 2012

Responsible Organization: Credit, Travel, and Grants Policy Division, Office of the Chief
Financial Officer

Recommendation No. 6: Implement a second-party quality review process to ensure that
information reported in the PAR is properly supported.

Management Response: We concur with OIG’s recommendation that USDA implement a
second-party quality review process to ensure that information reported in the PAR is properly
supported.

The following action will address this recommendation:

We will strengthen our quality control process over the improper payments section of the PAR,
including a comparison of the MD&A and Appendix, by completing a second-party quality
control review early in the drafting process. The Credit, Travel, and Grants Policy Division will
perform the first review. The Planning and Accountability Division will perform the second
review based on a third quarter report. The quality control process will also include a review of
the improper payments section by the contributing component agencies.

                                                 3
Date Corrective Action Will be Completed: September 30, 2012

Responsible Organization: Credit, Travel, and Grants Policy Division, and Planning and
Accountability Division, Office of the Chief Financial Officer

Recommendation No. 7: Implement a system of controls to ensure that the agencies
consistently and accurately categorize improper payments.

Management Response: We concur with OIG’s recommendation to direct the agencies to
establish a process to consistently and accurately categorize improper payments.

The following actions will address this recommendation:

1) We will request guidance from OMB to better define the three categories of errors and
   provide examples;
2) We will coordinate with component agencies to develop a plan to standardize the
   classification of USDA payment errors within OMB’s three categories of root causes;
3) OCFO will revise the Departmental CAP guidance to include examples of USDA payment
   errors applicable to each OMB category; and
4) We will conduct a quality control review of component agencies’ submissions for the
   FY 2012 PAR to ensure payment errors are consistently and accurately categorized.

Date Corrective Action Will be Completed: August 3l, 2012

Responsible Organization: Credit, Travel, and Grants Policy Division, Office of the Chief
Financial Officer

Recommendation No. 8: Update OCFO guidance for determining the cause category of an
error to include specific examples related to USDA programs.

Management Response: USDA concurs with OIG’s recommendation to update OCFO
guidance for determining the cause category of an error to include examples related to USDA
programs.

The following actions will address this recommendation:

1. We will revise the Departmental CAP guidance to include examples of errors applicable to
   each OMB category; and
2. We will conduct a quality control review of component agencies submission for the FY 2012
   PAR. This review will ensure that the payments errors are consistently and accurately
   categorized.

Date Corrective Action Will be Completed: August 3l, 2012


                                              4
Responsible Organization: Credit, Travel, and Grants Policy Division, Office of the Chief
Financial Officer




                                              5
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday-Friday, 9:00a.m.- 3 p.m.               ED




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual's income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA's TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
